                                    SOCIAL SECURITY
MEMORANDUM

Date:      June 25, 2002

To:        The Commissioner

From:      Inspector General

Subject:   Analysis of Information Concerning Representative Payee Misuse of Beneficiaries’
           Payments (A-13-01-11004)


        The attached final report presents the results of our evaluation. Our objective was to
        analyze information concerning representative payee (Rep Payee) misuse of
        beneficiaries’ payments. Specifically, we were to determine whether common
        characteristics existed for Rep Payees who had misused beneficiary payments.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                     James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


    ANALYSIS OF INFORMATION
   CONCERNING REPRESENTATIVE
         PAYEE MISUSE OF
     BENEFICIARIES’ PAYMENTS

     June 2002   A-13-01-11004
                                    Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE

Our objective was to analyze information concerning representative payee (Rep Payee)
misuse of beneficiaries’ payments. Specifically, we were to determine whether common
characteristics existed for Rep Payees who had misused beneficiary payments.

BACKGROUND
Some individuals cannot manage or direct the management of their benefits because of
their youth or mental and/or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint Rep Payees to receive and
manage these beneficiaries’ payments. A Rep Payee may be an individual or an
organization. SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance
beneficiaries or Supplemental Security Income recipients when representative payment
would serve the individual’s interests.

A Rep Payee is required to use the benefits only for the beneficiary’s use and benefit.
Benefit payment misuse occurs when Rep Payees do not use benefit payments for the
beneficiary’s current and foreseeable needs or do not conserve unused benefits for the
beneficiary. SSA is responsible for investigating all allegations of misuse and protecting
the beneficiary’s best interests. When SSA has determined that misuse has occurred,
the suspected violation should be referred to the Office of the Inspector General (OIG)
to consider possible criminal, civil, and/or administrative remedies.

To perform our review, we obtained and analyzed a file of 2,417 individuals identified
within SSA’s Representative Payee System (RPS) as having misused approximately
$12 million in beneficiary payments. SSA rendered these misuse determinations from
January 1997 through December 1999.

RESULTS OF REVIEW
Based on our review of data contained in the RPS, we did not identify statistically
significant common characteristics that were unique to Rep Payees who misused
benefit payments. However, our analysis of the RPS data identified several problems in
SSA’s monitoring and oversight of these Rep Payees. Specifically, we found the
following.

SSA Did Not Always Refer Misuse Cases to the OIG

·   Misuse cases we reviewed were not always referred to the OIG for possible criminal,
    civil, and/or administrative remedies.

·   Additional misuse cases may exist that should be referred to the OIG.


Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                  i
SSA Retained Rep Payees Who Committed Misuse

·   SSA frequently retained Rep Payees who misused benefit payments.

·   Rep Payees who misused payments and were subsequently retained as Rep
    Payees did not always make mandatory repayment of misused benefit payments.

·   Rep Payees who were previously incarcerated misused benefit payments and
    continued as Rep Payees.

Rep Payees Had Rep Payees

·   Rep Payees managed benefits of others when SSA had determined they could not
    manage their own benefits.


CONCLUSIONS AND RECOMMENDATIONS
When Rep Payees commit misuse, they undermine the trust placed in them to manage
beneficiaries’ payments. When misuse occurs, SSA has a responsibility to remedy the
situation. This includes removing the Rep Payee; obtaining repayment of misused
payments; and referring misuse cases to the OIG for possible criminal, civil, and/or
administrative remedies. In addition, when SSA decides to retain these Rep Payees, it
should closely monitor them to ensure misuse does not occur again. Our review found
that increased SSA oversight is needed of Rep Payees who misuse benefit payments.

We recommend that SSA:

1. Develop and implement a process to identify and refer prior known instances of Rep
   Payee misuse to the OIG for possible criminal, civil, and/or administrative remedies.

2. Follow existing policy for referring all future Rep Payee misuse cases to the OIG for
   possible criminal, civil, and/or administrative remedies.

3. Comply with Agency policy that Rep Payees are rarely retained after misuse has
   occurred.

4. Periodically assess the continued suitability of Rep Payees that previously misused
   benefit payments. SSA should closely monitor these Rep Payees to detect and
   prevent the misuse of benefit payments belonging to its most vulnerable
   beneficiaries.

5. Create and implement management controls to ensure compliance with mandatory
   repayment of misused benefit payments when Rep Payees are retained after benefit
   payment misuse has occurred.


Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                    ii
6. Automate the process that identifies incarcerated Rep Payees. This process should
   alert SSA of the need to assess an individual’s continued suitability to serve as a
   Rep Payee.

7. Implement management controls to prevent the appointment of individuals as Rep
   Payees who have a Rep Payee managing their own benefits, and identify individuals
   currently serving as Rep Payees that become incapable of managing their own
   benefits.

AGENCY COMMENTS
In response to our draft report, SSA agreed with all of our recommendations. (See
Appendix B for the full text of SSA’s comments.)




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)              iii
                                                          Table of Contents
                                                                                                              Page
INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

SSA Did Not Always Refer Misuse Cases to the OIG ........................................4

·   Misuse cases we reviewed were not always referred to the OIG for
    possible criminal, civil, and/or administrative remedies .....................................5

·   Additional misuse cases may exist that should be referred to the OIG ..............5

SSA Retained Rep Payees Who Committed Misuse ..........................................5

·   SSA frequently retained Rep Payees who misused benefit payments ..............5

·   Rep Payees who misused payments and were subsequently retained
    as Rep Payees did not always make mandatory repayment of misused
    benefit payments ...............................................................................................6

·   Rep Payees who were previously incarcerated misused benefit
    payments and continued as Rep Payees...........................................................6

Rep Payees Had Rep Payees ...............................................................................7

·   Rep Payees managed benefits of others when SSA had determined
    they could not manage their own benefits .........................................................7

CONCLUSIONS AND RECOMMENDATIONS.......................................................9

OTHER MATTERS ...............................................................................................11

APPENDICES

APPENDIX A – Early Alert Memorandum

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)
                                                                   Acronyms
OI                           Office of Investigations

OIG                          Office of the Inspector General

POMS                         Program Operations Manual System

RPS                          Representative Payee System

Rep Payee                    Representative Payee

SSA                          Social Security Administration




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)
                                                                      Introduction
OBJECTIVE
Our objective was to analyze information concerning representative payee (Rep Payee)
misuse of beneficiary payments. Specifically, we were to determine whether common
characteristics existed for Rep Payees who had misused beneficiary payments.

BACKGROUND
Some individuals cannot manage or direct the management of their benefits because of
their youth or mental and/or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint Rep Payees to receive and
manage these beneficiaries’ payments.1 A Rep Payee may be an individual or an
organization. SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance
beneficiaries or Supplemental Security Income recipients when representative payment
would serve the individual’s interests.

Rep Payee Responsibilities

Rep Payees are responsible for using benefits in the beneficiary’s best interests. Their
duties2 include:

·     using benefits to meet the beneficiary’s current and foreseeable needs,

·     conserving and investing benefits not needed to meet the beneficiary’s current
      needs,

·     maintaining accounting records,

·     reporting events to SSA that may affect the beneficiary’s entitlement or benefit
      payment amount,

·     reporting any changes in circumstances that would affect their performance as a
      Rep Payee, and

·     providing SSA an annual Representative Payee Report accounting for how benefits
      were spent and invested.




1
    The Social Security Act, as amended, §§ 205(j)(1)(A), 42 U.S.C. 405 and 1631(a)(2)(ii), 42 U.S.C. 1383.
2
    Program Operations Manual System (POMS), GN 00502.113B.


Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                                 1
Rep Payees who misuse3 benefit payments are indebted to the beneficiaries and have
an obligation to make repayment to these beneficiaries. Rep payees may accomplish
this by:

·     returning the payments to SSA, in whole or in installments, to reissue to the new
      Rep Payee or to the beneficiary, as appropriate;

·     voluntarily allowing withholding of funds from their own Social Security benefits; or

·     repaying the beneficiary or new Rep Payee directly.

SSA Responsibilities

SSA must investigate allegations of benefit misuse, determine the facts, and protect the
beneficiary’s best interests. SSA prepares “misuse determinations,” which are
comprehensive statements that document its decision as to whether the Rep Payee
misused benefit payments. Separate misuse determinations are prepared for each
affected beneficiary. Once it is determined that a Rep Payee misused benefit
payments, SSA must take action to remedy or correct the beneficiary’s situation. Those
actions include the following:

·     appointing a new Rep Payee;

·     determining a Rep Payee is no longer needed and initiating “direct payment”4 to the
      beneficiary;

·     making repayment5 of misused benefits; and

·     referring instances of benefit payment misuse to the Office of the Inspector General
      (OIG) for possible criminal, civil and/or administrative remedies.

To assist in investigations of the suitability of Rep Payee applicants, the Omnibus
Budget Reconciliation Act of 19906 requires SSA to develop and maintain a centralized
system identifying Rep Payees and the beneficiaries they serve. As a result, SSA
created the Representative Payee System (RPS). The RPS is an automated system for
entering and retrieving information about Rep Payees and Rep Payee applicants. The
RPS also maintains information about beneficiaries in the Rep Payee’s care and the
3
 POMS, GN 00604.001 B. 4., Misuse of Benefits – Misuse of benefits refers to the misappropriation of
benefits by the Payee. Misuse of benefits occurs when the Payee neither uses benefits for the current
and foreseeable needs of the beneficiary nor conserves benefits for the beneficiary.
4
    A “direct payment” occurs when a benefit payment is issued directly to a beneficiary.
5
 The term “repayment” is used to denote when SSA directs Rep Payee to pay misused funds to the
beneficiary or if SSA reissues benefit payments because of negligence (POMS GN 00604.060D.2).
6
    The Social Security Act, as ammended, § 205(j)(3)(E), 42 U.S.C. 405.


Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                                 2
relationship between Rep Payees and beneficiaries. In addition, SSA uses the RPS to
collect and maintain information on Rep Payees who have misused benefits.

SSA uses the information maintained within RPS to prevent selection of Rep Payees
who have been convicted of committing SSA-related fraud, improve its selection
process, prepare annual reports to Congress on Rep Payee activities, and obtain data
for workload projections. The RPS is intended to provide all known information about
Rep Payee applicants so a well-informed assessment of applicants’ suitability can be
made.

SCOPE AND METHODOLOGY
To accomplish our objective, we:

·   Reviewed SSA’s POMS and the Social Security Handbook pertaining to the policies
    and procedures applicable to the Representative Payment Program.

    -   Obtained and analyzed data elements contained within the RPS information
        regarding 2,696 misuse determinations (involving 2,417 Rep Payees) made from
        January 1997 through December 1999.

·   Performed the following tests for the 2,417 Rep Payees:

    -   determined whether misuse cases over $5,000 were referred to the OIG, Office
        of Investigations (OI) for possible criminal, civil and/or administrative remedies;

    -   determined the number of Rep Payees who were retained as Rep Payees after
        misuse occurred;

    -   determined whether Rep Payees made mandatory repayment of misused funds;

    -   identified the number of Rep Payees who were incarcerated after the misuse
        occurred and determined whether SSA continued to make payments to the
        affected Rep Payees; and

    -   identified the number of Rep Payees who had Rep Payees managing their own
        Social Security benefits.

We performed our review in Baltimore, Maryland, from December 2000 to
December 2001. The entity reviewed was the Office of Operations under the Deputy
Commissioner for Operations. We conducted our evaluation in accordance with Quality
Standards for Inspections issued by the President’s Council on Integrity and Efficiency.




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                   3
                                                 Results of Review
Based on our review of data contained in the RPS, we did not identify statistically
significant common characteristics7 that were unique to Rep Payees that misused
benefit payments. However, our analysis of the RPS data identified several problems in
SSA’s monitoring and oversight of these Rep Payees. Specifically, we found the
following.

SSA Did Not Always Refer Misuse Cases to the OIG

·   Misuse cases we reviewed were not always referred to the OIG for possible criminal,
    civil, and/or administrative remedies.

·   Additional misuse cases may exist that should be referred to the OIG.

SSA Retained Rep Payees Who Committed Misuse

·   SSA frequently retained Rep Payees who misused benefit payments.

·   Rep Payees who misused payments and were subsequently retained as Rep
    Payees did not always make mandatory repayment of misused benefit payments.

·   Rep Payees who were previously incarcerated misused benefit payments and
    continued as Rep Payees.

Rep Payees Had Rep Payees

·   Rep Payees managed benefits of others when SSA had determined they could not
    manage their own benefits.

SSA Did Not Always Refer Misuse Cases to the OIG

When SSA makes a misuse determination, the suspected violation should be referred to
the OIG for further review and investigation. Failure to refer misuse cases to OIG
precludes potential development of criminal, civil and administrative investigations that
could yield court-ordered restitution, fines/penalties, and administrative action to prevent
loss, achieve savings, or recover fraud loss.




7
 Examples of common characteristics reviewed include mailing address types (for example, Post Office
Box, street address, etc.), felony status, and program type (Old-Age, Survivors and Disability Insurance or
Supplemental Security Income).


Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                                 4
                                    SSA did not always refer Rep Payees that misused
Misuse Cases We Reviewed            benefit payments to the OIG. To determine whether
Were Not Always Referred to         SSA properly referred misuse cases to the OIG, we
the OIG for Possible                judgmentally selected all Rep Payees (670) with
Criminal, Civil, and/or             misuse amounts over $5,000, representing over
Administrative Remedies             $8.5 million. Our review showed that 521
                                    (78 percent) of those cases over $5,000 were not
referred to the OIG for possible criminal, civil and/or administrative remedies. Those
cases represented over $5.9 million in misused benefits.

Specifically, in one situation, a Rep Payee misused $36,456 from June 1990 through
February 1997. This individual was receiving benefits for a child even though the child
was in the custody of a State foster care agency for the entire period. SSA did not refer
this situation to the OIG for investigation, and, according to SSA’s records, the child was
never compensated for the misused funds. During our review, we referred the
521 misuse cases to the OIG’s Office of Investigations. We are working with the
Agency to determine why these cases were not referred to the OIG.

                               From January 1997 through December 1999, SSA made
Additional Misuse Cases
                               misuse determinations involving 2,417 Rep Payees.
May Exist that Should Be
                               Since our review was limited to 670 of these Rep Payees,
Referred to the OIG
                               we may not have identified all misuse cases that should
                               have been referred to the OIG. Furthermore, cases may
exist concerning misuse determinations made after December 1999 that were not
referred to the OIG for possible criminal, civil and/or administrative remedies.

SSA Retained Rep Payees Who Committed Misuse

Generally, a Rep Payee who misuses benefit payments is no longer suitable to act as a
Rep Payee. According to SSA’s policy, in rare cases, SSA may determine that payment
should continue to the same Rep Payee. However, SSA policy permits this only if the
Rep Payee has made repayment of the misused benefits (or has a definite plan to do
so) and there is good reason to believe the Rep Payee will use benefits properly in the
future.8

SSA Frequently Retained         We found that SSA retained 418 of 2,417 (17.3 percent)
Rep Payees Who Misused          Rep Payees after determining they had misused benefit
Benefit Payments                payments. Of these, there were 29 individuals who
                                misused benefit payments for multiple beneficiaries. For
2 of the 29 individuals, SSA continued to retain the individuals as Rep Payees, although
SSA determined that subsequent misuse occurred. By retaining these 418 Rep
Payees, $3.5 million9 of beneficiary payments is at-risk of misuse.


8
    POMS, GN 00604.045.
9
    Yearly projected amounts are based on the assumption that all variables remain constant.


Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                        5
                                             When a Rep Payee misuses beneficiary payments,
Rep Payees Who Misused
                                             the Rep Payee becomes indebted to the beneficiary.
Payments and Were
                                             A Rep Payee who has misused beneficiaries’
Subsequently Retained as
                                             payments may be retained only if the Rep Payee has
Rep Payees Did Not Always
                                             made repayment of the misused benefit payments (or
Make Mandatory Repayment
                                             has a definite plan to do so). A Rep Payee’s
of Misused Benefit
                                             unwillingness or inability to repay misused funds
Payments
                                             increases the risk of future misuse.

Our review found that Rep Payees who were retained as a Rep Payee after committing
misuse did not always make the mandatory repayment of misused benefit payments.
The 418 Rep Payees SSA retained had misused benefit payments totaling $1.8 million
during our review period. According to SSA’s records, the following chart shows the
recovery status for the misused benefits as of September 2000.

         Recovery Status                          Amount                Dollar Percentage

         Unpaid                                $ 1,461,000                        79

         Currently Being Repaid                    363,000                       19.7

         Fully Repaid                                24,000                       1.3

         Total Misuse Amount                    $ 1,848,000                       100

For example, during our review, we identified a Rep Payee who misused $35,077 in
benefit payments intended for the use of a minor child. The misuse determination was
made in July 1997, and there has been no collection activity to date. As of
November 2001, this same individual continued to receive benefits for another minor
child.

Rep Payees Who Were           Incarceration and/or having a criminal history does not
Previously Incarcerated       necessarily prevent an individual from serving as a Rep
Misused Benefit               Payee. However, we believe it is a strong indication the
Payments and Continued        individual may no longer be suitable to continue as a
as Rep Payees                 Rep Payee. To identify incarcerated Rep Payees, SSA
                              performs periodic matches of prisoner records with the
RPS. During our review, we learned this match produces an alert10 that requires a
manual review of RPS information to determine whether the individual is serving as a
Rep Payee.

We found that 11 Rep Payees were receiving benefits on behalf of other beneficiaries
after the Rep Payee misused the benefits. These Rep Payees were subsequently
incarcerated. However, SSA continued to retain these individuals as Rep Payees. SSA
10
     An alert is an automated or paper notification that a situation/problem requires attention.



Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                            6
should have been aware from the matches of prisoner records and RPS information that
these individuals were incarcerated. As of June 2001, the match of prisoner records
indicated these Rep Payees were no longer incarcerated, and SSA continued to pay
$87,484 in benefits per year to these 11 Rep Payees.

In one instance, we identified an individual serving as a Rep Payee who misused
beneficiary payments, was retained as a Rep Payee, and was subsequently convicted
of an unrelated felony and confined to prison on October 26, 1999. On June 4, 2001,
we notified SSA that this individual was still serving as a Rep Payee.11 As a result, SSA
appointed the beneficiary a new Rep Payee.

Rep Payees Had Rep Payees

Before a Rep Payee is appointed, SSA must evaluate the applicant’s ability to handle
his/her own affairs. Specifically, SSA policy12 states “…Never appoint as payee
someone who has a payee.”

                              During our review, we identified 30 individuals who had
Rep Payees Managed            Rep Payees, had misused another beneficiary’s
Benefits of Others When       benefits, and were acting as Rep Payees. These Rep
SSA Had Determined            Payees misused over $156,000 in benefit payments.
They Could Not Manage         This occurred because RPS does not prevent the
Their Own Benefits            appointment of individuals who have a Rep Payee as a
                              Rep Payee. During the Rep Payee application process,
RPS generates an alert “RP has RP,” which indicates the applicant has a Rep Payee
managing their benefit payments. However, RPS does not prevent the selection of
such an individual.

In addition, if an individual who is serving as a Rep Payee becomes incapable of
managing his/her own benefits, RPS does not generate an alert to bring attention to this
condition. Such an alert could bring about the removal of beneficiaries from the Rep
Payee’s care.

On March 2, 2001, we issued an Early Alert, Representative Payees Who Have
Representative Payees, to SSA (Appendix A). As a result of the information provided in
our Early Alert, SSA has taken the following corrective actions. Specifically, SSA:

·     Identified approximately 3,800 Rep Payees who had Rep Payees.

·     Issued a memorandum to Regional Commissioners identifying the Rep Payees that
      had Rep Payees located within their respective regions and a draft of guidance for
      addressing this issue.

11
  Memorandum to Acting Deputy Commissioner for Operations, June 4, 2001; Subject: Incarcerated
Representative Payee.
12
     POMS, GN 00502.130.


Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                          7
·   Developed an Agency Intranet site for accessing and updating information pertaining
    to the corrective actions taken to remove these individuals as Rep Payees
    (appointing a new Rep Payee or making direct payment to the beneficiary).

·   Initiated action to implement changes to RPS intended to prevent the selection of
    individuals as Rep Payees that have Rep Payees managing their own benefits.

SSA has informed us that the changes to RPS will be complete in the near future.




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                 8
                                            Conclusions and
                                           Recommendations
When Rep Payees commit misuse, they undermine the trust placed in them to manage
beneficiaries’ payments. When misuse occurs, SSA must take action to remedy or
correct the beneficiary’s situation. This includes removing the Rep Payee; obtaining
repayment of misused benefit payments; and referring misuse cases to the OIG for
possible criminal, civil, and/or administrative remedies. In addition, when SSA decides
to retain these Rep Payees, close monitoring of such Rep Payees may be required to
ensure benefit payment misuse does not occur again. Our review found that increased
SSA oversight is needed of Rep Payees who misuse benefit payments.

We recommend that SSA:

1. Develop and implement a process to identify and refer prior known instances of Rep
   Payee misuse to the OIG for possible criminal, civil and/or administrative remedies.

2. Follow existing policy for referring all future Rep Payee misuse cases to the OIG for
   possible criminal, civil and/or administrative remedies.

3. Comply with Agency policy that Rep Payees are rarely retained after misuse has
   occurred.

4. Periodically assess the continued suitability of Rep Payees that previously misused
   benefit payments. SSA should closely monitor these Rep Payees to detect and
   prevent the misuse of benefit payments belonging to its most vulnerable
   beneficiaries.

5. Create and implement management controls to ensure compliance with mandatory
   repayment of misused benefit payments when Rep Payees are retained after benefit
   payment misuse has occurred.

6. Automate the process that identifies incarcerated Rep Payees. This process should
   alert SSA of the need to assess an individual’s continued suitability to serve as a
   Rep Payee.

7. Implement management controls to prevent the appointment with individuals as Rep
   Payees who have a Rep Payee managing their own benefits, and identify individuals
   currently serving as Rep Payees that become incapable of managing their own
   benefits.




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)               9
AGENCY COMMENTS
In response to our draft report, SSA agreed with all of our recommendations. (See
Appendix B for the full text of SSA’s comments.)




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)             10
                                                        Other Matters
SSA SHOULD HAVE AUTHORITY TO COLLECT MISUSED FUNDS

A Rep Payee who misuses benefit payments becomes indebted to the beneficiary and
has an obligation to make repayment to the beneficiary. SSA rendered determinations
that 2,417 Rep Payees misused benefit payments from January 1997 through
December 1999. These Rep Payees misused beneficiary payments totaling almost
$12 million. According to RPS, the recovery status for the $12 million is as follows.

                               RECOVERY STATUS

                               12%        1%
                                                            33%
                    24%



                                             30%


 n Fully recovered (1 percent) - the misused amount has been completely repaid.

 n Abandoned (12 percent) – SSA has determined that efforts to recover misused
    payments are futile and further efforts cannot be justified.

 n Being recovered (24 percent) - an agreement for repayment has been reached.

 n Deferred (30 percent) - SSA suspended collection activity.

 n Refund requested (33 percent) – SSA notified the Rep Payee and requested
    repayment of the misused benefit payments.


Although SSA has broad authority to recover overpayments (such as, tax refund offsets,
referral to contract collection agencies, notifying credit bureaus, and administrative
offsets of future federal benefit/payments), these debt collection tools cannot be used to
recover benefits misused by Rep Payees. As a result, most misused funds are not
recovered and repaid to the affected beneficiaries. We support legislative proposals
that would treat misused benefits as overpayments to the Rep Payee. Thus providing
SSA the necessary means for recovering the misused payments.


Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                11
                                            Appendices




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)
                                                                                     Appendix A


MEMORANDUM
Date:   March 2, 2001                                                             Refer To:

To:     William A. Halter
        Acting Commissioner
         of Social Security

From:   Inspector General

Subject: EARLY   ALERT: Representative Payees Who Have Representative Payees


        While conducting a review of Representative Payees (Rep Payees) who have misused
        beneficiaries’ funds, we found there were individuals serving as Rep Payees who had a
        Rep Payee to manage their own Social Security benefits. Since the Social Security
        Administration (SSA) has determined these individuals cannot manage their own
        benefits, we question why they have been selected as a Rep Payee to manage the
        benefits of other beneficiaries.

        As part of our efforts to assist SSA in improving its oversight of Rep Payees, we have
        initiated the review, Analysis of Information Concerning Representative Payees Misuse
        of Beneficiaries’ Payments (A-13-01-11004). This review includes an analysis of Rep
        Payees who have a misuse indicator reflected in the Representative Payee System
        (RPS) for the period January 1997 through December 1999. During our initial review of
        this information, we identified 30 Rep Payees who had Rep Payees to manage their
        own SSA benefits. SSA policy precludes individuals from serving as a Rep Payee who
        have a Rep Payee for their own benefits.

        In addition, according to the information in the RPS, these individuals misused $156,891
        in benefits intended for their beneficiaries. Of that, SSA has recovered only $10,778.
        We are particularly concerned that individuals who are determined to be incapable of
        managing their own benefits and who have misused another beneficiary’s benefits are
        approved to serve as a Rep Payee for other individuals.

        We note that SSA has taken corrective action to remove most of these individuals from
        serving as a Rep Payee. As of January 2001, only one individual was active as a Rep
        Payee. We recommend SSA take prompt action to select a new Rep Payee for this
        beneficiary and institute adequate controls to ensure this condition does not reoccur.




        Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)
Page 2 – William A. Halter

We will make ourselves available to assist you in determining the extent of this condition. If
you have any questions concerning this matter, please contact me or have your staff contact
Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.



                                                        /s/
                                                   James G. Huse, Jr.




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)
                                                                          Appendix B

Agency Comments




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)
                                          SOCIAL SECURITY


MEMORANDUM


Date:        June 3, 2002                                                           Refer To: S1J-3

To:          James G. Huse, Jr.
             Inspector General

From:        Larry Dye /s/
             Chief of Staff

Subject:     Office of the Inspector General Draft Report, “Analysis of Information Concerning Representative
             Payee Misuse of Beneficiaries' Payments" (A-13-01-11004)—INFORMATION

            We appreciate OIG's efforts in conducting this review. Our comments on the report content and
            recommendations are attached.

            Please let us know if we can be of further assistance. Staff questions can be referred to
            Dan Sweeney on extension 51957.

            Attachment:
            SSA Response




           Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                      B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“ANALYSIS OF INFORMATION CONCERNING REPRESENTATIVE PAYEE MISUSE OF
BENEFICIARIES' PAYMENTS” (A-13-01-11004)


Recommendation 1

Develop and implement a process to identify and refer prior known instances of representative
payee (Rep Payee) misuse to the OIG for possible criminal, civil and/or administrative remedies.


Comment

We agree that all cases involving Rep Payee misuse should be referred to OIG for investigation.
This is SSA’s current policy. We will issue a reminder, on a priority basis, to field offices (FO)
to ensure that this policy is followed and that these cases are coded appropriately in the
Representative Payee System (RPS).

We are working with OIG’s Office of Investigations to identify and formally refer all cases
involving misuse, including the ones OIG identified in this audit.

Recommendation 2

Follow existing policy for referring all future Rep Payee misuse cases to the OIG for possible
criminal, civil and/or administrative remedies.


Comment

We agree with this recommendation. As indicated above, we will issue a reminder to FOs to
ensure this policy is followed.

Recommendation 3

Comply with Agency policy that Rep Payees are rarely retained after misuse has occurred.


Comment

We agree that Rep Payees who have previously misused a beneficiary’s benefits should be
retained as a payee only in unusual circumstances. In those rare instances in which the Rep
Payee is retained after misuse has occurred, it may be the case that the custodial parent or (other
close relative) is the payee and we have determined that this person is the best payee for that
beneficiary. We will issue a reminder to FOs that particular care must always be taken in
retaining any payee who has previously misused benefits.




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                          B-2
Recommendation 4

Periodically assess the continued suitability of Rep Payees that previously misused benefit
payments. SSA should closely monitor these Rep Payees to detect and prevent the misuse of
benefit payments belonging to its most vulnerable beneficiaries.


Comment

We agree to the need to periodically assess the continued suitability of Rep Payees who have
previously misused benefit payments. This recommendation is consistent with current policy
and procedures. A payee who is retained should be monitored closely and should repay the
misused benefits or have a plan to do so. We will review current instructions to clarify and
emphasize these requirements and issue reminders to the FOs. We will explore the use of
systems controls to ensure follow-up reviews to assess the continued suitability of payees who
have misused benefits. We are considering periodically using the RPS database to identify those
current payees who have previously misused benefits and sending the listing to the FOs for
follow-up reviews. We will also examine the feasibility of an automatic diary to ensure that
follow-up reviews are conducted.

Recommendation 5

Create and implement management controls to ensure compliance of mandatory repayment of
misused benefit payments when Rep Payees are retained after benefit payment misuse has
occurred.


Comment

We agree. Our current policy is that a Rep Payee who has misused benefits should only be
retained if he/she has repaid the misused benefits or has established a repayment plan. Under
these policies, the FO or Payment Service Center (PSC) is responsible for ensuring controls on
payee repayments of the misused benefits. We will issue a reminder to FOs and PSCs on the
importance of these controls.

To provide additional tools, i.e., offset of tax refunds, for collection of the repayments, we have a
proposal in our fiscal year 2003 legislative package to treat misused benefits as overpayments
and subject them to overpayment recovery authority. This legislative change was also included
in H.R. 4070, which was adopted by the House Ways and Means Committee, Social Security
Subcommittee, on April 25, 2002.

We will evaluate the extent to which the existing system of controls for overpayments can be
applied to Rep Payees who are required to repay benefits—without subjecting them to
overpayment recovery tools for which there is no authority.




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                          B-3
Recommendation 6

Automate the process that identifies incarcerated Rep Payees. This process should alert SSA of
the need to assess an individual’s continued suitability to serve as a Rep Payee.


Comment

We agree that a person who is incarcerated cannot properly manage someone else’s benefits and
would not be a suitable payee. We will clarify this policy and issue a reminder. As indicated in
the OIG report, we have conducted periodic matches to identify incarcerated Rep Payees. The
full automation of this process is scheduled to take place in November 2002. At that time, prison
data will be passed against the RPS on a daily basis. If a match is found, the RPS will produce
an alert to the field and establish a diary for control purposes.


Recommendation 7

Implement management controls to prevent the appointment of individuals as Rep Payees who
have a Rep Payee managing their own benefits, and identify individuals currently serving as Rep
Payees that become incapable of managing their own benefits.


Comment

We agree. It is our policy that individuals who have a Rep Payee should not be selected as a payee
for someone else. We have established systems controls that will prevent this from occurring.

Beginning in September 2001, an alert is generated by RPS when 1) a payee applicant is a
current beneficiary with a payee or 2) a person is applying to serve as payee for a beneficiary
who is a payee for another individual. If the user ignores the alert and attempts to process the
payee selection anyway, RPS blocks the selection.

Regarding beneficiaries having a payee who may have already been selected to be someone
else's payee prior to the September 2001 process described above, files that potentially identified
Rep Payees with Rep Payees were sent to the FOs for investigation. We plan to run another
match, later in 2002, to identify any remaining inappropriate selections.




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)                            B-4
                                                                          Appendix C

OIG Contact and Staff Acknowledgments
OIG Contacts

       Shirley E. Todd, Director, General Management Audit Division
       (410) 966-9365

       Jim Klein, Audit Manager, General Management Audit Division
       (410) 965-9739

Acknowledgments

In addition to those named above:

       Janet Stein-Pezza, Senior Program Analyst

       Katherine Baker, Auditor

       Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-01-11004.




Analysis of Rep Payee Misuse of Beneficiaries’ Payments (A-13-01-11004)
                             DISTRIBUTION SCHEDULE

                                                                            No. of
                                                                            Copies

Commissioner of Social Security                                                 1
Management Analysis and Audit Program Support Staff, OFAM                      10
Inspector General                                                               1
Assistant Inspector General for Investigations                                  1
Assistant Inspector General for Executive Operations                            3
Assistant Inspector General for Audit                                           1
Deputy Assistant Inspector General for Audit                                    1
 Director, Systems Audit Division                                               1
 Director, Financial Management and Performance Monitoring Audit Division       1
 Director, Operational Audit Division                                           1
 Director, Disability Program Audit Division                                    1
 Director, Program Benefits Audit Division                                      1
 Director, General Management Audit Division                                    1
Team Leaders                                                                   25
Income Maintenance Branch, Office of Management and Budget                      1
Chairman, Committee on Ways and Means                                           1
Ranking Minority Member, Committee on Ways and Means                            1
Chief of Staff, Committee on Ways and Means                                     1
Chairman, Subcommittee on Social Security                                       2
Ranking Minority Member, Subcommittee on Social Security                        1
Majority Staff Director, Subcommittee on Social Security                        2
Minority Staff Director, Subcommittee on Social Security                        2
Chairman, Subcommittee on Human Resources                                       1
Ranking Minority Member, Subcommittee on Human Resources                        1
Chairman, Committee on Budget, House of Representatives                         1
Ranking Minority Member, Committee on Budget, House of Representatives          1
Chairman, Committee on Government Reform and Oversight                          1
Ranking Minority Member, Committee on Government Reform and Oversight           1
Chairman, Committee on Governmental Affairs                                     1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
 and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
 Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
                     Overview of the Office of the Inspector General

                                                Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the Social
Security Administration’s (SSA) programs and makes recommendations to ensure that program
objectives are achieved effectively and efficiently. Financial audits, required by the Chief Financial
Officers Act of 1990, assess whether SSA’s financial statements fairly present the Agency’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs. OA also conducts short-term management and program evaluations
focused on issues of concern to SSA, Congress, and the general public. Evaluations often focus on
identifying and recommending ways to prevent and minimize program fraud and inefficiency.

                                      Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human resources.
In addition, this office is the focal point for the OIG’s strategic planning function and the development
and implementation of performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices nationwide hold
themselves to the same rigorous standards that we expect from SSA, as well as conducting investigations
of OIG employees, when necessary. Finally, OEO administers OIG’s public affairs, media, and
interagency activities, coordinates responses to Congressional requests for information, and also
communicates OIG’s planned and current activities and their results to the Commissioner and Congress.


                                           Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud, waste,
abuse, and mismanagement of SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, physicians, interpreters, representative payees, third parties, and by SSA
employees in the performance of their duties. OI also conducts joint investigations with other Federal,
State, and local law enforcement agencies.

                                     Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General on
various matters, including: 1) statutes, regulations, legislation, and policy directives governing the
administration of SSA’s programs; 2) investigative procedures and techniques; and 3) legal implications
and conclusions to be drawn from audit and investigative material produced by the OIG. The Counsel’s
office also administers the civil monetary penalty program.
